Office of
Inspector
General


             Semiannual
             Report to the
             Congress

             October 1, 2005
             March 31, 2006


Railroad
Retirement
Board
                        TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           2


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    4

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             5

Audits: Management Decisions and Implementation . . . . . . . . . . . . . . . . . . .                                   12 


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   13 

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           14 

Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           15 

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 17 

Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     25 

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     26 


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . .                                                   27


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              28 

(B) OIG Reports with Recommendations that Questioned Costs and

     Recommendations that Funds Be Put To Better Use . . . . . . . . . . . . . . . .                                    29 

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . . . . . . . .                                31 

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      32 

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . . . . . . . .                           38 





                  All reports are available via the Internet at http://www.rrb.gov
    Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




EXECUTIVE SUMMARY

Audit Activities
    During the reporting period of October 1, 2005 through March 31, 2006, the Office
    of Audit completed the audit of the Railroad Retirement Board’s Fiscal Year 2005
    financial statements, related internal controls and compliance with laws and
    regulations. Auditors issued a clean opinion, and reported that the principal
    financial statements presented fairly the financial position of the agency for the
    fiscal years ending September 30, 2005 and 2004. They reported material
    weaknesses in the agency’s information security program, performance
    measurement program, and the actuarial projection process. They also cited two
    reportable conditions related to agency compliance with the Prompt Payment Act
    and accounting for leases.

    The Office of Inspector General also issued a summary of serious management
    challenges that the agency faces: internal control, the statement of social
    insurance, the financial reporting entity, performance measures, improper
    payments and information technology security.

    Auditors examined the processing of annuity deductions for retired employees who
    work after full retirement age. They estimated a one-time financial impact of
    $257,000 resulting from improper payments for this category of annuitants.
    Another review on the accuracy of some performance measures was also issued.



Investigative Accomplishments
    The Office of Investigations achieved 26 convictions, 16 indictments and
    informations, 16 civil judgements, and $1.5 million in recoveries, restitutions, fines,
    civil damages, and penalties.




                                           1
   Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




INTRODUCTION

Railroad Retirement Board
                       The Railroad Retirement Board (RRB) is an independent
                       agency in the executive branch of the Federal government that
                       is headed by a three member Board appointed by the President
                       of the United States, with the advice and consent of the
                       Senate. One member is appointed upon the recommendation
                       of railroad employers, one is appointed upon the
                       recommendation of railroad labor organizations, and the third,
                       who is the Chairman, is appointed to represent the public
                       interest.

                       The agency administers comprehensive retirement-survivor
                       and unemployment-sickness insurance benefit programs for
                       the nation's railroad workers and their families under the
                       Railroad Retirement and Railroad Unemployment Insurance
                       Acts. The RRB also has administrative responsibilities under
                       the Social Security Act for certain benefit payments and
                       Medicare coverage for railroad workers.

                       During Fiscal Year (FY) 2005, the RRB paid approximately
                       $9.2 billion in retirement and survivor benefits to some 634,000
                       beneficiaries, while net unemployment and sickness insurance
                       benefits of $73 million were paid to almost 29,000 claimants.
                       The RRB also administers its own Medicare Part B program
                       through a single carrier, Palmetto GBA. The carrier made
                       payments totaling $870 million to provide medical insurance
                       benefits for 535,000 beneficiaries.




                                          2
   Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




Office of Inspector General

                       The Office of Inspector General (OIG) has the responsibility for
                       promoting economy, efficiency and effectiveness in the
                       programs of the Railroad Retirement Board. The office is also
                       charged with the detection, prevention and elimination of fraud,
                       waste and abuse in agency operations. To accomplish its
                       mission, the OIG conducts audits, management reviews and
                       investigations.

                       The Railroad Retirement Solvency Act of 1983 established the
                       Office of Inspector General at the Railroad Retirement Board
                       by naming the agency as “one of such establishments”
                       identified under Section 2 of the Inspector General Act of 1978.
                       The Inspector General Act Amendments of 1988 added the
                       RRB to the list of agencies covered by the Inspector General
                       Act.

                       The OIG has 53 employees assigned to three operational
                       components: the immediate office of the Inspector General,
                       the Office of Audit, and the Office of Investigations. The office
                       conducts operations from two locations: the headquarters of
                       the Railroad Retirement Board in Chicago, Illinois, and an
                       investigative field office in Philadelphia, Pennsylvania.




                                          3
  Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




OFFICE OF AUDIT

                      The Office of Audit (OA) conducts audits and reviews to
                      promote economy, efficiency, and effectiveness in the
                      administration of RRB programs, and to detect and prevent
                      waste, fraud, and abuse in such programs. Through the
                      Inspector General, the office ensures that the Board Members
                      and Congress are informed of current and potential problems in
                      the RRB’s programs and operations, and advised of
                      recommended improvements, as well as the status of
                      corrective actions. OA examines programmatic, financial, and
                      administrative aspects of RRB operations.

                      During this semiannual reporting period, OA performed the
                      audit of the agency’s FY 2005 financial statements, related
                      internal controls and compliance with laws and regulations.
                      Auditors reported that the principal financial statements
                      presented fairly the financial position of the agency for the
                      fiscal years ending December 31, 2005 and 2004. Auditors
                      also identified the serious management challenges that the
                      agency faces.

                      Two additional audits were completed concerning the
                      application of work deductions and the reliability of
                      performance measures.

                      Discussion of completed reviews, major findings and
                      recommendations for corrective actions follow.




                                         4
    Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




FISCAL YEAR 2005 FINANCIAL STATEMENTS

                        During this semiannual reporting period, the RRB issued the
                        FY 2005 Performance and Accountability Report that detailed
                        the goals and accomplishments of the agency. The report
                        included the results of the OIG audit of the agency’s FY 2005
                        financial statements and a description of the serious
                        management challenges facing the agency that were identified
                        by OIG auditors.

                        Auditors examined the FY 2005 financial statements, related
                        internal controls, and compliance with laws and regulations and
                        issued a clean opinion on the financial statements. They
                        reported three material weaknesses: the RRB’s information
                        security program, the performance measurement program, and
                        the actuarial projection process. They also cited two reportable
                        conditions related to compliance with the Prompt Payment Act
                        and accounting for leases. Several other matters involving
                        internal control were addressed, and recommendations issued
                        for improvement.

Material Weaknesses

                        Information System Security

                        For the fifth consecutive year, auditors identified the agency’s
                        information security program as a source of material weakness
                        in internal control. Their review disclosed significant
                        weaknesses in program management and access controls.
                        They noted that the agency has not completed corrective
                        actions necessary to eliminate previously reported deficiencies
                        in training and access controls, the basis of the OIG’s original
                        finding of material weakness.

                        Auditors also reported that the RRB is experiencing difficulty in
                        achieving an effective security program that is compliant with


                                           5
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                         the Federal Information Security Management Act (FISMA).
                         Two new significant deficiencies, delays in meeting FISMA
                         requirements for risk assessments and periodic
                         testing/evaluation, were identified.

                         Performance Measures

                         Auditors performed detailed tests of two performance
                         measures and determined that the agency had materially
                         overstated its performance with respect to timeliness. As a
                         result, the RRB withdrew its prior year performance information
                         for the two indicators and qualified its presentation of current
                         year performance. Auditors recommended that the agency
                         include validation of data and retention of supporting
                         documentation.

                         Actuarial Projection Process

                         The OIG identified inadequacies in internal control over the
                         projections and related reports. The RRB must strengthen
                         controls over the actuarial projection process that supports the
                         projections and estimates presented in the statement of social
                         insurance and related disclosures.

Reportable Conditions

                         Controls Over Compliance with the
                         Prompt Payment Act

                         The agency’s existing systems and procedures are not
                         effective in ensuring interest is paid to vendors in accordance
                         with requirements. The RRB has not identified all invoices on
                         which interest should be paid and has not paid the correct
                         amount of interest when a late payment is recognized.




                                            6
   Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                       Accounting for Leases

                       Auditors determined that the RRB does not have adequate
                       controls to ensure leases are properly classified, justified and
                       reported. Current procedures do not include formal evaluation
                       and documentation of pre-contract review to identify capital
                       leases and ensure their proper recording and reporting.
                       Recommendations were provided to management to improve
                       current processing.

                       Other Matters Involving Internal Control

                       In the Letter to Management, auditors addressed other internal
                       control issues related to the computation of Prompt Payment
                       Act interest, separation of duties, the untimely recording of
                       pending tax credits, the validation and reconciliation of
                       personnel record changes and the verification of Department of
                       Labor fund transfers.



SERIOUS MANAGEMENT CHALLENGES

                       As part of its financial statement audit, the OIG identified six
                       serious management challenges that the agency faces.

                       Internal Control - The OIG has repeatedly questioned the
                       effectiveness of the RRB’s overall control environment, and
                       identified it as a material weakness in previous audits of the
                       agency’s financial statements. Although the agency has
                       implemented a management control review process, OIG
                       evaluations have determined that the process does not identify
                       weaknesses and does not fully integrate information security
                       responsibilities into the process.

                       Statement of Social Insurance - The FY 2006 basic
                       financial statements must include a statement of social



                                          7
Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                    insurance. In a FY 2005 assessment of controls over the
                    actuarial projection process, auditors reported that the agency
                    must take action to ensure an auditable statement of social
                    insurance.

                    Financial Reporting Entity - The National Railroad
                    Retirement Investment Trust (NRRIT), a non-governmental
                    entity, is responsible for investing railroad retirement assets of
                    approximately $29 billion. It has never been included in the
                    RRB’s consolidated reporting because management
                    considered its status precluded such treatment.

                    The OIG reported that new Federal financial reporting
                    requirements related to social insurance and earmarked funds
                    would create unacceptable inconsistencies in the RRB’s
                    financial reports due to the exclusion of the NRRIT. In FY
                    2005, the Office of Management and Budget (OMB) directed
                    the RRB to take action to include the NRRIT in its audited
                    financial reports.

                    The OIG is working with RRB management to obtain the
                    necessary information from the NRRIT on a timely basis for the
                    audit of the FY 2006 financial statements.

                    Improper Payments - Although the RRB maintains a
                    system of program integrity measures and quality assurance
                    reviews, the Improper Payments Information Act (IPIA) of 2002
                    has had little real impact at the Railroad Retirement Board
                    other than to mandate annual reporting. The agency’s General
                    Counsel advised that the RRB is not subject to requirements
                    for statistical estimates or remediation plans that the IPIA
                    imposes on risk susceptible programs.

                    Performance Measures - The RRB needs to be proactive
                    in ensuring the credibility of its performance measures. A FY
                    2005 OIG audit identified weaknesses in the agency’s
                    measurement of selected indicators.



                                       8
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                         Information Technology Security - Information security
                         remains an area of material weakness for the RRB. Auditors
                         observed weaknesses in the agency’s implementation of
                         requirements for risk based policies and procedures, a
                         remedial action process, continuity of operations, and inventory
                         of systems. They also noted that the RRB’s response to
                         Federal requirements for certification and accreditation of
                         information systems has been adversely impacted by the
                         existence of deficiencies in the FISMA mandated security
                         program.



Annuity Deductions for Retired Employees Working After
Full Retirement Age

                         When a railroad employee works after retirement, his/her
                         railroad annuity may be impacted in the following ways:

                         $ If the retired employee works for a railroad employee or
                         railroad labor organization, the entire annuity is not payable.

                         $ If an annuitant works for his/her last pre-retirement non-
                         railroad employer (LPE), a portion of benefit is reduced,
                         regardless of the amount of earnings or the annuitant=s age.
                         The annuitant=s LPE is any non-railroad institution which
                         employed the annuitant on his/her annuity beginning date, or
                         for which he/she stopped working in order to receive an
                         annuity.

                         $ A retired employee can work for a non-railroad employer
                         other than a LPE and still receive retirement benefits.
                         However, benefits will be reduced if earnings exceed certain
                         limits and if the annuitant is under the full retirement age.

                         Auditors examined employee age and service annuities for
                         individuals born between January 1, 1935 and October 31,
                         1938, and in current pay status as of February 28, 2005 to
                         determine if the RRB identified and applied work deductions to

                                            9
Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                    employee annuities accurately. They determined that the
                    agency is not, in fact, applying work deductions for all
                    employee annuitants who work after the full retirement age
                    because some annuitants are not monitored for LPE earnings.

                    These annuitants are removed from the agency’s annual
                    earnings and LPE monitoring process the year after they stop
                    working. They are also not included in the policing program
                    that monitors the wage histories of annuitants to identify
                    undisclosed income. If annuitants resume working for the LPE
                    and do not inform the agency, work deductions are not applied
                    because the RRB cannot detect the earnings.

                    Auditors estimated a one-time financial impact of approximately
                    $257,000 from overpayments to this type of annuitant.
                    Program officials agreed to implement system programming
                    changes for the current computer programs that identify LPE
                    earnings.

Accuracy and Reliability of GPRA Performance Measures:
Timeliness of Non-Disability Survivor Annuity Payments

                    The Government Performance and Results Act (GPRA) of
                    1993 initiated program performance reform in requiring
                    agencies to establish program goals, measure performance
                    against those goals and report publicly on their progress in
                    annual reports. The annual performance report must address
                    each program activity included in an agency=s budget.

                    The RRB=s report contains performance indicators for the
                    timeliness of non-disability survivor payments that include initial
                    survivor benefits, spouse to survivor benefit conversions and
                    lump-sum death benefits. OIG auditors evaluated the
                    performance documentation recorded for these measures from
                    October 2004 through June 2005 to determine the reliability
                    and validity of the data.




                                       10
Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                    The review identified problems in verification procedures,
                    processing methods, and internal controls. The agency had
                    incorrectly included some disability cases in the initial survivor
                    payment performance statistics, and made errors in the time
                    lapse methodology for some initial survivor payment cases. In
                    addition, the current process for compiling performance
                    measure data relies upon multiple systems and data sources
                    as well as extensive manual processing and adjustments.
                    Procedures for the preparation of performance reports are not
                    documented, and a single person is trained and designated to
                    compile data. Auditors also noted that there is a lack of
                    adequate record retention policies for management records
                    and supporting system data for performance measures.

                    Auditors recommended that program management implement
                    controls and procedures to ensure accurate performance
                    information is compiled, documented and reported for the
                    annual GPRA report. Corrective action is underway for all
                    report recommendations.




                                       11
Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




MANAGEMENT DECISIONS AND IMPLEMENTATION

The Office of Inspector General maintains the open audit follow-up system to track
the status of corrective actions for all audit recommendations. Office of
Management and Budget Circular No. A-50 (Revised) and the Inspector General
Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.



Management Decisions for Recommendations



Requiring a management decision on October 1, 2005                                   45

Pending management decisions for new recommendations                                  0

Management decisions for previous recommendations                                    45

Recommendations pending a management decision
on March 31, 2006                                                                     0



Corrective Actions

Recommendations requiring action on October 1, 2005                                 166

Recommendations issued during this period                                            18

Corrective actions completed during the period                                      - 46

Final actions pending on March 31, 2006                                             138




                                       12
 Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




OFFICE OF INVESTIGATIONS


                     The Office of Investigations (OI) focuses on RRB benefit
                     program fraud. OI's primary objective is to identify and
                     investigate cases of waste, fraud and abuse in RRB programs
                     and refer them for prosecution and monetary recovery action.
                     Through its investigations, OI also seeks to prevent and/or
                     deter program fraud. In order to maximize the effect of its
                     resources, OI continues to pursue cooperative investigative
                     activities and coordination with other Inspectors General and
                     law enforcement agencies, which include the Social Security
                     Administration-Office of Inspector General, the Office of
                     Personnel Management-Office of Inspector General, the
                     Federal Bur the U.S. Secret Service, the Internal Revenue
                     Service, and the Postal Inspection Service.

                     During this semiannual reporting period, OI conducted two
                     projects to identify disability annuitants who may be receiving
                     benefits to which they are not entitled. These projects involved
                     conducting searches of online records of states to identify
                     annuitants who are registered as officers or directors of
                     corporations in those states. As a result, OI has initiated a
                     significant number of investigations, and will continue to
                     conduct such studies.




                                        13
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




INVESTIGATIVE ACCOMPLISHMENTS


                                                                               10/01/05
                                                                               03/31/06

Convictions                                                                              26

Civil Judgements                                                                         16

Indictments/Informations                                                                 16

Investigative Recoveries                                                        $ 476,225

Restitutions and Fines                                                          $ 853,882

Civil Damages and Penalties                                                     $ 199,369

Potential Economic Loss Prevented (PELP)                                        $ 253,609

Community Service Hours                                                              6,970

Disciplinary/Administrative Actions                                                       0

Civil Complaints                                                                          4
Criminal Complaints                                                                       1

Arrests                                                                                   1

Subpoena Service:
 Inspector General                                                                       10
 Federal Grand Jury                                                                      37
 Trial                                                                                   10

U.S. Attorney Referrals                                                                  169




                                            14
       Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




INVESTIGATIVE CASES

During this semiannual period, OI opened 144 investigations and closed 121 cases. The
major sources of case referrals are illustrated below.


                                                        RRB Field Offices - 16%




                                                                 OIG Developed - 6%



   RRB Headquarters - 52% 

                                                                   Hotline - 17%





                                                         Others - 9%




OI's current caseload totals 465 criminal matters, representing approximately $11.9
million in fraud against the RRB.

                                                          Disability -217 cases
                                                              $5,600,000




                                                                     Sickness - 14 cases
 Unemployment - 86 cases                                                  $66,000
       $479,000
                                                                  Spouse/Dependent - 21 cases
                                                                       $575,000
                                                              Representative Payee - 24 cases
                                                                    $227,000

                  Retirement -88 cases                 Other - 15 cases
                       $1,839,000                       $3,130,000




                                              15
   Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




DISTRIBUTION OF CASES

   The Office of Investigations (OI) conducts its investigations throughout the United
   States in response to complaints or allegations regarding violations of Federal law.


   The map below indicates the number of open investigations that OI currently has in
   each state; there are no open cases in Alaska or Hawaii. Two additional
   investigations are underway in Canada.




                                          16
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




REPRESENTATIVE INVESTIGATIONS


Retirement Benefit Investigations

                         RRB retirement fraud typically involves the theft and fraudulent
                         cashing of U.S. Treasury checks, or the illicit conversion of U.S.
                         Treasury electronic fund transfers, by someone other than the
                         authorized RRB annuitant. During this reporting period, OI
                         obtained six convictions for retirement fraud. The defendants in
                         these cases received sentences totaling 4¼ years
                         imprisonment, 29 years probation, one year and 11 months
                         house arrest and were ordered to perform 6,820 hours of
                         community service. They were also ordered to pay $295,834 in
                         restitution and $200 in fines. The RRB will recover an additional
                         $138,498 in overpayments as a result of OIG investigations of
                         retirement benefit programs.

                         OI routinely receives referrals from the RRB’s Debt Recovery
                         Division that involve the fraudulent receipt of RRB retirement
                         annuity payments, usually by a relative of a deceased
                         annuitant.

                         Examples of recent retirement cases follow.

Divorcee Ordered to Repay $97,961

                         OI opened an investigation based on a complaint received on
                         the OIG hotline. The caller alleged the recipient of an RRB
                         surviving divorced spouse annuity in Kansas had remarried and
                         failed to notify the RRB.

                         Subsequent investigation confirmed the annuitant failed to
                         reveal her marriage on her application for a surviving divorced
                         spouse annuity in December 1994. As a result, she
                         fraudulently received RRB benefits totaling $97,961 from
                         November 1995 through November 2004.


                                            17
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                         When interviewed by OI special agents, the woman stated she
                         did not remember if she was remarried when she filed her
                         application.

                         She then told the agents that she thought her marriage had
                         been annulled or dissolved. When asked to provide
                         documentation, she admitted that she had remarried prior to
                         application to be covered under her husband’s health
                         insurance. She then admitted that she knowingly withheld
                         information to receive the retirement benefits as a divorced
                         spouse.

                         In January 2006, the subject was convicted and sentenced to
                         five months of home confinement, five years probation, fined
                         $100 and ordered to make restitution of $97,961.

Granddaughter of Deceased Annuitant Agrees to Return $57,718

                         A referral from the RRB’s District Office in New York City
                         indicated that an annuitant had died but the RRB continued to
                         issue benefit checks to her.

                         OI agents determined that the annuitant’s granddaughter
                         illegally received the retirement benefits from May 1991 through
                         September 2003. The total overpayment was $57,718. When
                         interviewed by agents, the subject admitted to failing to advise
                         the RRB of her grandmother’s death.

                         The subject accepted a plea agreement and was subsequently
                         sentenced to five years supervised probation, ordered to
                         perform 80 hours of community service, and required to make
                         full restitution to the RRB.




                                            18
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




Fraudulent Receipt of $23,000 in Benefits for Alleged Minor Child

                         OI opened an investigation based on a referral from an RRB
                         program office that alleged that a Pennsylvania woman had
                         failed to notify the agency that her daughter had reached the
                         age of 18. A survivor annuity may be paid to an unmarried
                         child under age 18 but notification to the RRB is required when
                         the child reaches 18.

                         The subject in this case failed to notify the RRB when her
                         daughter reached 18 in February 1998. The agency continued
                         to pay benefits until June 2000, resulting in an overpayment of
                         $29,120. When interviewed by OI special agents, the mother
                         accepted responsibility for not advising the agency when her
                         child turned 18, and agreed to make restitution. She
                         subsequently entered into a settlement agreement in which she
                         agreed to make a lump sum payment of $23,000 to the RRB.



Disability Investigations

                         The OIG also conducts fraud investigations relating to the
                         RRB's disability program, which typically involves larger
                         financial amounts and more sophisticated schemes. An
                         individual who receives a disability annuity is restricted to
                         earning not more than $400 in one month. An earnings cap of
                         $4,999 per year also applies. Disability annuitants must report
                         all work activity to the RRB.

                         During this reporting period, OI obtained nine convictions and
                         four civil judgements for disability fraud. The defendants in
                         these cases received sentences totaling nine months
                         imprisonment, 27½ years probation and one year, 11 months
                         house arrest. They were also ordered to pay $384,014 in
                         restitution, $72,841 in damages, $4,345 in penalties and $1,550
                         in fines. The RRB will recover an additional $247,387 as a




                                            19
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                         result of disability fraud investigations concluded during this
                         reporting period. Descriptions of several cases follow.

Disability Annuitant Who Failed to Reveal Earnings from Health Club and
Construction Company Ordered to Repay $167,013

                         The RRB’s Milwaukee District Office provided information to the
                         OIG concerning an allegation that a disability annuitant was
                         managing a construction company but failing to report his
                         wages.

                         Subsequent investigation by OI special agents revealed that
                         the annuitant received disability benefits from December 1995
                         through October 2003. As a result, he had fraudulently
                         received $167,013 in disability benefits. He had directed a
                         construction company from 1998 through 2003. He had also
                         managed a Wisconsin health club from 1995 through 1997, and
                         concealed his wages by working under his wife’s name and
                         social security number. The subject had earned over $10,000
                         a year from 1995 through 2003.

                         The subject told OI agents that he was aware that he was
                         required to report his work and earnings to the RRB. He
                         denied he ever worked at the construction company, and
                         worked only 3-4 hours a week at the health club but received
                         no wages for his work.

                         The annuitant was subsequently convicted and sentenced to
                         nine months in prison, three years probation, fined a special
                         assessment fee of $100 and ordered to make full restitution to
                         the RRB.




                                            20
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




Owner of Freight Company Ordered to Repay $48,938

                         OI opened this case as the result of a special disability project
                         initiated to identify RRB disability annuitants who might be
                         concealing employment and income under corporations
                         established in the State of Georgia. OI agents identified an
                         annuitant who had filed his application for a disability annuity in
                         October 1989, and was awarded an occupational disability in
                         November 1989 due to low back pain syndrome and lumbar
                         fusion. Continuing disability reports filed by the subject
                         indicated no employment or self-employment since his annuity
                         beginning date.

                         OI investigation revealed that the annuitant and his wife had
                         incorporated a freight company in Georgia in April 1994. The
                         subject admitted that he had, in fact, worked as a broker for the
                         corporation, but that his spouse performed no services.

                         In October 2005, the subject pleaded guilty to a criminal
                         information and was sentenced to three years probation, six
                         months of which were served in home confinement with
                         electronic monitoring. He was ordered to pay restitution of
                         $48,938 and a special assessment fee of $25.

Fraudulent Receipt of $42,856 by Bar Doorman

                         A complaint received by OI indicated an RRB disability
                         annuitant was working as a doorman at a Chicago bar while
                         receiving RRB disability benefits. OI agents determined that
                         the subject had failed to report his earnings to the RRB and had
                         exceeded the earnings restrictions on his annuity.

                         From 2001 through 2004, the subject had earned $52,230. He
                         was charged and convicted for theft of government funds. He
                         was ordered to make restitution of $42,855 to the RRB, and
                         sentenced to three years probation and five months home
                         detention.



                                            21
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




Missouri electrician must remit $55,014 to the RRB

                         OI opened this case based on a referral from an RRB program
                         division. The RRB conducted a match of Social Security
                         earnings data with RRB disability annuitant information. The
                         match identified earnings posted to an annuitant’s social
                         security number from a number of different private employers.

                         OI special agents determined that the subject was employed
                         during 2000 through 2002 while receiving a total and
                         permanent disability benefit from the RRB. He had been
                         employed as an electrician and laborer at several firms, and
                         had earned in excess of the monthly/annual earnings limitation
                         amounts. He had failed to report this work and earnings as
                         required.

                         The subject had received $55,014 in benefits to which he was
                         not entitled. He pleaded guilty to a criminal information and
                         was sentenced to six months home confinement, five years of
                         probation, drug and alcohol treatment, mental heath treatment,
                         and ordered to pay $55,014 in restitution to the RRB.



Unemployment and Sickness Insurance Investigations

                         Unemployment Insurance (UI) and Sickness Insurance (SI)
                         benefit fraud involves individuals claiming and receiving UI or
                         SI benefits while working and receiving wages from an
                         employer, in violation of Federal law. OI receives the majority
                         of these cases for followup investigation from the RRB’s
                         Disability, Sickness and Unemployment Benefits Division as a
                         result of information developed from state wage matching
                         programs. These programs match RRB annuitants with
                         individuals who also had wages reported to the state during the
                         same period of time.




                                            22
     Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                         During this reporting period, OI obtained eight convictions and
                         11 civil judgements for UI and SI fraud. Defendants in these
                         cases received, in the aggregate, 122 days imprisonment, 9
                         years probation, and six months house arrest. They were
                         ordered to pay $30,731 in restitution, $55,856 in damages,
                         $275 in fines, and $43,328 in civil penalties. The RRB will also
                         be able to recover an additional $61,509 as a result of OI
                         investigations.

                         Examples of cases completed this reporting period follow.

Nevada Annuitant Falsely Claims Unemployment Benefits

                         A wage match with the State of Nevada identified an annuitant
                         who was receiving UI benefits while employed by Manpower,
                         the City of Las Vegas and Levi Strauss. The subject submitted
                         17 false claims and two false statements to the RRB, resulting
                         in the theft of $7,771 in UI benefits.

                         The annuitant entered into a settlement agreement and agreed
                         to repay the total amount. He was ordered to make an initial
                         payment of $50 within ten days of the agreement.

Judge Trebles Judgement to $14,268

                         A wage match with the State of Florida resulted in a referral to
                         OI concerning an annuitant who had wages reported for the
                         same days that he was receiving UI benefits. OI investigation
                         revealed that the annuitant had fraudulently received $4,756 in
                         UI benefits for 99 days.

                         The U.S. District Court in Tampa, FL filed a default judgement
                         in a civil case against the subject ordering a judgement of
                         $14,268 (single damages trebled to this amount). The RRB will
                         receive the original overpayment amount of $4,756 and interest
                         pertaining to this sum.




                                            23
   Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




Employee Misconduct

   Identity Theft

                       OI also has the responsibility for ensuring agency integrity by
                       investigating alleged misconduct by RRB employees.

                       OI special agents initiated an investigation based upon a
                       complaint from an RRB program director. The director alleged
                       that an unknown person had stolen her personal information
                       and opened a Visa credit card account under her name. The
                       director became aware of the account when she was notified
                       that there was a delinquent balance of $1,153 on the credit
                       card.

                       Through investigation, OI special agents identified a previous
                       temporary employee who had been responsible for entering
                       data into the RRB’s payroll system. In this capacity, she had
                       access to the social security numbers for employees. When
                       she left her temporary position, she took a list of the agency
                       employee social security numbers.

                       When questioned by OI agents, the subject admitted to
                       attempts to obtain credit cards using the stolen social security
                       numbers. However, she denied that she had charged $1,000
                       on the Visa card, and explained that someone had stolen the
                       card from her mailbox.

                       She was subsequently convicted and ordered to make
                       restitution of $1,000 to the issuing institution and was
                       sentenced to two years probation.




                                          24
   Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM


                       OI continues to pursue prosecution of cases under the
                       Department of Justice's Affirmative Civil Enforcement Program.
                       This program involves "fast track" civil prosecution of cases
                       under the provisions of the Title 31, U. S. Code, Sections 3729­
                       3733, The Civil False Claims Act. This statute allows the
                       government to recover up to triple damages as well as $5,000
                       to $10,000 for each false claim submitted.

                       The Department of Justice frequently obtains double damages
                       through these civil false claims prosecutions. The judgements
                       obtained in these cases also provide the agency with an
                       efficient and effective basis to pursue their collection activities.

                       The ACE Program continues to provide an efficient means to
                       address fraud against agency programs, particularly where the
                       fraud losses are below the financial guidelines for criminal
                       prosecution. It also is an effective way to return fraud losses to
                       the RRB's trust funds and create a deterrent against future
                       fraud.

                       During this reporting period, three civil judgements under the
                       ACE program were entered by Federal district courts which will
                       result in the return of $49,317 to the government when the
                       funds are collected.




                                          25
Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




                           HOTLINE CALLS

The Office of Inspector General established its Hotline to receive complaints
concerning suspected fraud, waste and abuse in RRB programs and operations.
The Hotline provides an open line of communication for individuals to report
suspected criminal activity, conflict of interest, mismanagement, and waste of RRB
funds.



                                                                            10/01/05
                                                                            03/31/06


Total Contacts: (Telephone Calls and Letters)                                       669


Referred to:


RRB-OIG, Office of Investigations                                                    22


RRB-OIG, Office of Audit                                                               1


RRB Bureaus/Offices                                                                 201


Other Federal Agencies                                                               26


RRB Medicare Carrier/Durable Medical Equipment
Regional Carriers                                                                      1


Other (misdirected calls, follow-up calls to agents,                                389
etc.)


Calls for which there was insufficient information
to substantiate an allegation or to make a referral                                 29




                                       26
 Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




LEGISLATIVE &
REGULATORY REVIEW

                     The Inspector General Act requires the Inspector General to
                     review existing and proposed legislation and regulations
                     relating to the programs and operations of the agency, and to
                     make recommendations in the semiannual report concerning
                     the impact on the economy and efficiency of the agency’s
                     administration of its programs and on the prevention of fraud
                     and abuse.

                     The OIG has no comments for this reporting period.




                                        27
   Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




APPENDIX A

REPORTS ISSUED

        #	     Fiscal Year 2005 Financial Statement Audit, Letter to Management ,
               November 15, 2005


        #	     Fiscal Year 2005 Special-Purpose Financial Statements Audit, Letter
               to Management, November 17, 2005


        #	     Accuracy and Reliability of GPRA Performance Measures and
               Timeliness of Non-Disability Survivor Annuity Payments, January 30,
               2006


        #	     Annuity Deductions for Retired Employees Working After Full
               Retirement Age, February 17, 2006




                                          28
      Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




APPENDIX B
        INSPECTOR GENERAL ISSUED REPORTS WITH

                  QUESTIONED COSTS


                                                            Questioned         Unsupported
                                            Number            Costs               Costs

A. For which no management decision had           0              0                  0
been made by October 1, 2005

                                                  0              0                  0
B. Which were issued from October 1, 2005
through March 31, 2006

                                                  0              0                  0
Subtotals (A + B)

                                                  0              0                  0
C. For which a management decision was
made from October 1, 2005 through
March 31, 2006

                                                                 0                  0
(i) dollar of disallowed costs

                                                                 0                  0
(ii) dollar value of costs not disallowed

                                                  0              0                  0
D. For which no management decision had
been made by March 31, 2006

                                                  0              0                  0
Reports for which no management decision
was made within six months of issuance




                                             29
      Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




       INSPECTOR GENERAL ISSUED REPORTS WITH

       RECOMMENDATIONS THAT FUNDS BE PUT TO 

                    BETTER USE 



                                                          Number             Dollar Value


A. For which no management decision had been
made by October 1, 2005                                     0                             0


B. Which were issued from October 1, 2005 through
March 31, 2006                                              1                $   257,000


Subtotals (A + B)                                           1                $   257,000


C. For which a management decision was made
from October 1, 2005 through March 31, 2006                 1


(i) dollar value of recommendations that were
agreed to by management                                                      $ 257,000


(ii) dollar value of recommendations that were not
agreed to by management                                                               0


D. For which no management decision had been
made by March 31, 2006                                      0


Reports for which no management decision was
made within six months of issuance                          0




                                                     30
   Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




APPENDIX C
REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES
   The FY1999 appropriations language for this office requires the reporting of
   additional information concerning actual collections, offsets and funds put to better
   use achieved as a result of Inspector General activities.

   Office of Audit

               Funds to be put      Funds Agreed         Receivables                   Recoveries
    Report       to better use      by Management        Established         Waivers     to date

    99-03       $         50,850     $          50,850    $      50,580    $ 50,490     $      360
    99-14                 83,000               83,000*           34,423                     30,584
    99-16             48,000,000           48,000,000                                    8,000,000
    99-17             11,000,000            11,000,000                                    1,604,545**
    00-16                235,000              235,000                                      253,846***
    04-06                821,000              821,000          629,688                     585,282
    04-10                400,000              400,000
    05-03              1,800,000             1,800,000
    05-06                 10,000                 10,000
    05-07              1,070,000             1,070,000
    05-10              2,600,000             2,600,000
    06-04                257,000               257,000
   * This figure includes monies owed to the agency and overpayments which must be refunded.
   ** This figure represents case corrections that resulted in receivables, annuitant payments,
      employer tax credits and liabilities.
   ***This figure represents returned payments credited to debtor accounts.

   Office of Investigations

   Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:

     FY 1999                                                             $      855,655

     FY 2000                                                                 1, 038,134

     FY 2001                                                                    990,356

     FY 2002                                                                    785,843

     FY 2003                                                                    947,876

     FY 2004                                                                    646,273

     FY 2005                                                                    844,183

     10/01/05-03/31/06                                                          474,663




                                                31
       Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




APPENDIX D
RRB MANAGEMENT REPORTS
(The information contained in this section has been provided by RRB
management.)


               MANAGEMENT REPORT ON FINAL ACTION

               ON AUDITS WITH DISALLOWED COSTS FOR

             THE SIX MONTH PERIOD ENDING MARCH 31, 2006



                                                                                          Disallowed
                                                              Number                        Costs
 A. Audit reports, with management decisions, on                               1                 $ 2,835*
 which final action had not been taken at the
 beginning of the period.

 B. Audit reports on which management
 decisions were made during the period.                                        0

 C. Total audit reports pending final action during
 the period.                                                                   1                 $ 2,835

 D. Audit reports on which final action was taken
 during the period.

 1. Recoveries                                                                 0                       0

    (a) Collections
    (b) Property
    (c) Other

 2. Write-offs                                                                 0                       0


 3. Total of 1 and 2                                                           0                       0


 E. Audit reports needing final action at the end                              1                  $2,835
 of the period.



* Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”




                                                      32
       Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006



 MANAGEMENT REPORT ON FINAL ACTION ON AUDITS WITH

RECOMMENDATIONS TO PUT FUNDS TO BETTER USE FOR THE

      SIX MONTH PERIOD ENDING MARCH 31, 2006



                                                                                      Funds to be put
                                                              Number                   to better use
 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                         5                         $ 3,809,996 *

 B. Audit reports on which management
 decisions were made during the period.                           1                              257,000 **

 C. Total audit reports pending final action during
 the period.                                                      6                            4,066,996

 D. Audit reports on which final action was taken
 during the period.

 1. Value of recommendations implemented.                         0                                     0

 2. Value of recommendations that management
 concluded should not or could not be
 implemented.                                                     0                                     0

 3. Total of 1 and 2.                                             0                                     0

 E. Audit reports needing final action at the end
 of the period.                                                   6                             4,066,996


* Comprised of the following amounts: $529,996 from Audit Report 01-11, “Review of the Quality of the Debt
Recognition and Collection Process for Railroad Retirement Act Overpayments,” $400,000 from Audit Report
04-10, “Review of Spouse Annuity Work Deductions at the Railroad Retirement Board,” $1,800,000 from Audit
Report 05-03, “Evaluation of the RRB’s Processing of Disability Earnings Cases,” $10,000 from Audit Report
05-06, “Review of Compliance with the Prompt Payment Act,” and $1,070,000 from Audit Report 05-07,
“Evaluation of Survivor Annuity Work Deductions at the Railroad Retirement Board.”

**Identfied in Audit Report 06-04, “Annuity Deductions for Retired Employees Working After Full Retirement
Age.”




                                                      33
        Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING 

                 AS OF MARCH 31, 2006


                                                          Funds to
                                                           be put to        Reason action has not
         Report               Date      Disallowed        better use           been completed
                                           Costs

Review of Quality            1/22/97      None              None       The remaining recommendation will
Assurance Activities                                                   be addressed in conjunction with
(97-06)                                                                efforts to improve calculation and
                                                                       reporting of performance measures.

Review of Non-Priority       3/13/97      None              None       The Office of Programs plans to
Correspondence                                                         install necessary infrastructure in
Handling (97-09)                                                       FY 06, and develop an action plan
                                                                       in FY 07 for tracking
                                                                       correspondence.

Information Systems          6/28/00      None              None       The agency has implemented 13
Security (INFOSEC)                                                     recommendations, and is working
Assessment Report                                                      to close out the remaining 1.

Review of Document           11/17/00     None              None       The agency has installed new
Imaging - Railroad                                                     hardware and software, and will use
Unemployment                                                           its annual disaster recovery test to
Insurance Act Programs                                                 demonstrate the recommended
(01-01)                                                                improvements.

Fiscal Year 2000             2/23/01      None              None       The Bureau of Information Services
Financial Statement                                                    is using new help-desk software to
Audit (01-03)                                                          improve problem reporting and
                                                                       close the last recommendation
                                                                       during FY06.

Site Security                7/20/01      None              None       The Bureau of Information Services
Assessment for the                                                     has closed out 11
Office of Inspector                                                    recommendations, and is in the
General (Blackbird #1)                                                 process of addressing the last 1.

Review of the Quality of      8/9/01      None            $ 529,996    The Office of Programs completed
the Debt Recognition                                                   all need case reviews and hopes to
and Collection Process                                                 issue a final report in May 2006.
for RRA Overpayments
(01-11)

Security Controls            8/17/01      None              None       The Bureau of Information Services
Analysis for the Office of                                             has closed 34 recommendations
Inspector General                                                      and should close out the remaining
(Blackbird #2)                                                         4 in FY07.




                                                     34
        Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                 AS OF MARCH 31, 2006


                                                    Funds to be
                                      Disallowed       put to          Reason action has not
        Report               Date        Costs       better use           been completed

Review of Information       2/5/02      None            None      The Bureau of Information Services
Security at the Railroad                                          has closed 19 recommendations
Retirement Board                                                  and is currently addressing the
(02-04)                                                           remaining 9.

Fiscal Year 2002            8/27/02     None            None      The agency awarded a new
Evaluation of                                                     contract for offsite disaster
Information Security at                                           recovery services and is
the RRB (02-12)                                                   developing needed documentation
                                                                  for review by the OIG.

Evaluation of the Self-    12/27/02     None            None      The Bureau of Information Services
Assessment Process                                                was able to use automated
for Information System                                            software tools to conduct security
Security (03-02)                                                  assessments on some systems,
                                                                  and hopes to complete the
                                                                  remaining ones during FY06.

Evaluation of the RRB      12/27/02     None            None      The Bureau of Fiscal Operations
E-government                                                      closed nine recommendations and
Initiative: RUIA                                                  the RRB received a revised MOU
Contribution Internet                                             from Treasury to address the
Reporting and                                                     remaining two.
Payment (03-03)

Inspection of Unverified    3/20/03     None            None      The Office of Programs has
Records in the RRB’s                                              reviewed all 20,000 records, with
Employment Data                                                   corrective actions scheduled for
Maintenance System                                                completion in FY07 following
(03-06)                                                           needed systems changes.

Review of the RRB’s         9/8/03      None            None      The Bureau of Information Services
PIN/Password System                                               will establish procedures as part of
for On-Line                                                       its standards update for Report
Authentication                                                    03-10 to close the remaining
(03-09)                                                           recommendation.

Review of the Systems       9/8/03      None            None      The Bureau of Information Services
Development Life                                                  is using new project management
Cycle for End-User                                                software which should help close
Computing                                                         the remaining recommendation in
(03-10)                                                           the first quarter of FY07.




                                                   35
        Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                 AS OF MARCH 31, 2006


                                                      Funds to
                                    Disallowed        be put to         Reason action has not
         Report            Date        Costs          better use          been completed

RRB’s Railroad            5/12/04      None             None       The Office of Programs plans to
Retirement Act                                                     complete a review of sampled items
Document Imaging                                                   and close the remaining
Process: Reliability of                                            recommendation in FY07.
Images from Scanned
Paper Documents
 (04-02)

Review of Accounts        7/29/04      None             None       Software enhancements addressed
Receivable Established                                             two of the open recommendations,
Under the Railroad                                                 while mainframe-based
Unemployment                                                       programming changes will be
Insurance Act (04-06)                                              needed to close the last one.

Review of Mainframe       9/7/04       None             None       The Bureau of Information Services
Access Controls at the                                             has closed two recommendations,
Application Level ­                                                and hopes to complete action on
Federal Financial                                                  the remaining two by the end of
System (04-07)                                                     FY07.

Review of Mainframe       9/7/04       None             None       Three recommendations have been
Access Controls at the                                             closed, and the Bureau of
Application Level - RRB                                            Information Services hopes to close
Developed Applications                                             the remaining one by the end of
Controlled by ACF2 and                                             FY07.
IDMS (04-08)

Review of Mainframe       9/9/04       None             None       Agency staff plan to complete
Access Controls at the                                             action on the remaining two
Application Level ­                                                recommendations by the end of
Program Accounts                                                   FY07.
Receivable System
(04-09)

Review of Spouse          9/30/04      None           $400,000     More than three-fourths of the
Annuity Work Deduction                                             cases identified have been
at the RRB (04-10)                                                 adjusted, with the remainder
                                                                   scheduled for completion during
                                                                   FY06.




                                                 36
      Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006



 MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

 OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

               AS OF MARCH 31, 2006


                                                     Funds to          Reason action has not
                                   Disallowed        be put to            been completed
      Report             Date         Costs          better use

FY2004 Evaluation       9/30/04      None              None       The Bureau of Information Services
of Information                                                    has closed seven of nine
Security at the RRB                                               recommendations, and plans to
(04-11)                                                           complete the remaining two in the
                                                                  first quarter of FY07.

FY2004 Financial        10/25/04     None              None       Agency units have closed 10 0f the
Statement Audit,                                                  14 recommendations, and hope to
Letter to                                                         complete action on the remaining
Management                                                        ones during FY06.
(05-01)

Review of the RRB’s     12/6/04      None              None       The agency made procedural
Compliance with                                                   change in its most recent
Federal Laws and                                                  commercial activities inventory and
Regulations on                                                    will submit documentation to the
Competitive                                                       OIG for review prior to completing
Sourcing (05-02)                                                  the next one.

Evaluation of the       1/11/05      None            $1,800,000   Programs staff has completed a
RRB’s Processing of                                               review of 2000 cases and is in the
Disability Cases (05­                                             process of reviewing those from
03)                                                               2001. They will develop an action
                                                                  plan and procedures to address
                                                                  their findings in FY06.




                                                37
      Semiannual Report to the Congress for the period October 1, 2005 - March 31, 2006




APPENDIX E
REPORTING REQUIREMENTS

Inspector General Requirements                                                                  Page

   Section 4(a)(2) - Review of Legislation and Regulations                                         27
   Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 5
   Section 5(a)(2) - Recommendations With Respect to Significant Problems,
    Abuses, and Deficiencies                                                                        5
   Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                          5
   Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   14
   Section 5(a)(5) - Instances Where Information Was Refused                                    None
   Section 5(a)(6) - List of Audit Reports                                                         28
   Section 5(a)(7) - Summary of Each Significant Report                                             5
   Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                29
   Section 5(a)(9) - Statistical Tables on Management Decisions on
    Recommendations That Funds Be Put to Better Use                                                30
   Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
    For Which No Management Decision Has Been Made                                              None
   Section 5(a)(11) - Description and Explanation for Any Significant
    Revised Management Decision                                                                 None
   Section 5(a)(12) - Information on Any Significant Management Decisions
    With Which the Inspector General Disagrees                                                  None


Management Requirements


   Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
   Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         32
   Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  33
   Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          34




                                               38
              REPORT

FRAUD, WASTE AND ABUSE




Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: RRB-OIG Hotline Officer
       844 North Rush Street
       Chicago, IL 60611-2092
